                                                                                           Office of Inspector General

                                                                                           U.S. Department of Homeland Security
                                                                                           300 Frank H. Ogawa Plaza, Suite 275
                                                                                           Oakland, California 94612




-
                                                        April 3, 2006


MEMORANDUM FOR:                         Karen E. Armes
                                        Acting Regional Director
                                        FEMA Region IX




FROM:                                   Robert J. Lastrico
                                        Director, Grant Program Management Audit Division

SUBJECT:                                Audit of San Francisco Unified School District
                                        San Francisco, California
                                        Public Assistance Identification Number 075-91003
                                        FEMA Disaster Number 0845-DR-CA
                                        Audit Report Number DS-02-06

The Office of Inspector General (OIG) audited public assistance grant funds awarded to the San
Francisco Unified School District, San Francisco, California (District). The objective of the audit
was to determine whether the District expended and accounted for Federal Emergency Management
Agency (FEMA) funds according to federal regulations and FEMA guidelines.

The District received a public assistance grant award of $14.7 million from the California Office of
Emergency Services (OES), a FEMA grantee, for emergency protective measures, permanent work
and improved project funding for a new administrative building in lieu of repairing the facilities
damaged as a result of the Loma Prieta Earthquake that occurred on October 17, 1989. The award
provided 75 percent federal funding for 11 large projects and 70 small projects.1 The audit covered
the period October 17, 1989 to September 30, 2005, and included a review of 11 large projects with
a total award of $14.4 million (see Exhibit).

The OIG performed the audit under the authority of the Inspector General Act of 1978, as amended,
and according to Government Auditing Standards issued by the Comptroller General of the United
States. The audit included a review of FEMA, OES, and District records, a judgmental sample of
project expenditures, and other auditing procedures considered necessary under the circumstances.




1
    Federal regulations in effect at the time of the disaster set the large project threshold at $36,500.
                                       RESULTS OF AUDIT

The District generally expended and accounted for public assistance funds according to federal
regulations and FEMA guidelines for 5 of 11 large projects reviewed. However, for six other large
projects, OIG questioned $619,045 in costs claimed by the District (FEMA’s share of the questioned
amount is $464,284). The amount questioned consisted of $610,768 in unsupported costs, and
$8,277 for duplication of benefits.

Finding A – Unsupported Costs

The District claimed $610,768 in project costs that were not supported with documentation proving
the charges were disaster related. According to 44 CFR § 13.20(b)(2), the District is required to
maintain accounting records that identify how FEMA funds are used. While this disaster occurred in
October 1989, 44 CFR § 13.42 required the District to retain financial and programmatic records for
3 years from specified starting dates. If any action involving the records, such as litigation, audit,
etc., has begun before the expiration of the 3-year period, the records must be retained until its
completion. In 1999, OES forwarded to FEMA its “Project Completion and Certification Report”.
However, FEMA did not close out the District’s award until March 27, 2003 when it determined that
all applicable administrative actions and all required work had been completed (see 44 CFR §
13.50). Since the award was not closed until March 2003, the District should have retained all
necessary records to support its claim until March 26, 2006, or for 1 year after this audit began.
Details regarding the unsupported costs are provided below.

•   For the five projects shown in Table 1, the District’s records did not include documentation such
    as invoices and cancelled checks to support $131,435 of the District’s claim. The projects
    provided funding for disaster costs relating to relocation, emergency protective measures, and
    permanent repairs to school grounds. However, the District could not produce documentation to
    support the costs it claimed for these projects.

                                                Table 1
                  Project                                             Costs Claimed But
                  Number                  Scope of Work                Not Supported
                  93835        Relocation                                 $ 12,410
                  91009        Relocation                                   24,981
                  92027        Emergency Protective Measures                50,804
                  92024        Emergency Protective Measures                38,120
                  72155        Repairs to a School                           5,120
                                                          Total           $131,435

•   For one improved project, District records did not support $479,333 of the claimed expenditures.
    The improved project provided funding of $13,653,931 to cover expenditures relating to the
    purchase and renovation of a new administrative facility, relocating of staff, and the mothballing
    of a District facility also damaged by the disaster. The source of the funding was a combination
    of four different large projects FEMA had previously approved to repair the damaged


                                                  2
    administrative facility.2 Records identified that FEMA funds were the only source of revenue
    applied to the project, and included documentation for only $13,174,598 of the amount claimed
    and did not support $479,333 ($13,653,931-$13,174,598).

District officials agreed that their records did not include sufficient documentation to support the
amounts claimed for the projects and stated they would continue searching for records and provide
those records to FEMA when responding to the final report. In regards to the improved project,
District officials stated that the District incurred additional renovation costs subsequent to the
acquisition and occupancy of the new facility. Those officials however, did not provide us any
documented evidence that identified the additional work and related costs, or proof that the work
performed was disaster related and approved by FEMA. Since District records did not support the
amounts claimed, the OIG questioned $610,768 ($131,435 + $479,333).

Finding B - Duplication of Benefits

The District’s claim for project 72155 included $8,277 in duplicative costs. The costs pertained to
disaster repairs reimbursed by both FEMA and the U.S. Department of Education (ED). The District
agreed that the costs were paid by both federal agencies. While local educational agencies, such as
SFUSD, may receive disaster assistance from both FEMA and ED, the Stafford Act does not allow
funding for identical costs paid under ED’s program.

                                          RECOMMENDATION

The OIG recommends that the Acting Regional Director, FEMA Region IX, in coordination with
OES, disallow $610,768 in unsupported costs, and $8,277 in duplicative benefits claimed by the
District.

               DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOW UP

We discussed the results of this audit with District officials and OES on December 19, 2005.
Comments made by District officials are incorporated in each finding above. We also notified
FEMA officials of the audit results on December 15, 2005.

Please advise this office by June 2, 2006 of any actions taken in response to the recommendation in
this report. Should you have any questions concerning this report, please contact me at (510) 637-
1461. Key contributors to this assignment were Humberto Melara, Jack Lankford, Paulette
Solomon, Sabinus Njoku and Apolinar Tulawan.




2
 The improved project consisted of damage survey reports (DSR) 71041, 71049, 88819 and 88820. A separate master
DSR was not assigned for the acquisition and renovation of the new administrative facility.
                                                                                        Exhibit



                                   Schedule of Audited Projects
                                San Francisco Unified School District
                        Public Assistance Identification Number 075-91003
                              FEMA Disaster Number 0845-DR-CA


                                                                             Finding
         Project Number       Award Amount         Questioned Costs         Reference
        Improved Project
              88820           $10,906,532
              71049             2,600,842
              71041               106,557
              88819                40,000
            Subtotal           13,653,931             $479,333                 A

              93835               220,429               12,410                 A
              92027               120,183               50,804                 A
              91009               137,061               24,981                 A
              89724                45,500                    0
              92024                53,127               38,120                 A
              93834               139,337                    0
              72155                53,439               13,397                A, B
              Total           $14,423,007             $619,045



Finding Reference Legend
A – Unsupported Costs
B – Duplication of Benefits




                                               4
